APPENDIX A

~~n"..,.r .: .

1.~TICE

~tit of ti~fs op@s~ion rt~ay

be changed or ccs~rec~ed
pray to the time fir t~kng of
e p~~~
a
of
~e~ tie s~r~e.

2019 IL App (lst) 163053
No. 1-16-3053
SECOND DIVISION
October 29, 2019

IN THE
APPELLATE COURT OF ILLINOIS
FIRST NDICIAL DISTRICT

THE PEOPLE OF THE STATE OF ILLINOIS,

Appeal from the Circuit Court
of Cook County.

Plaintii~Appellee,
No. 16 CR 8706

v.

DeANDRE McMICHAELS,
The Honorable
Vincent M. Gaughan,
Judge Presiding.

Defendant-Appellant.

JUSTICE PUCINSKI delivered the judgment of the court, with opinion.
Justices Lavin and Coghlan concurred in the judgment and opinion.
OPII~TION
¶1

Following a bench trial, defendant DeAndre McMichaels was convicted of one count of

being an armed habitual criminal and was sentenced to eight yeazs' imprisonment. On appeal, he
argues that the trial court erred in denying his motion to quash arrest and suppress evidence
where police officers conducted an unreasonable stop and seazch in violation of Terry v. Ohio,
392 U.S. 1 (1968), and lacked probable cause to arrest him. We affirm.
¶2
¶3

I. BACKGROUND
Defendant was charged by indictment with one count of being an armed habitual

criminal, two counts of unlawful possession of a 'weapon by a felon, and four counts of

1-16-3053
aggravated unlawful use of a weapon, arising from an incident in Chicago on May 24, 2016. The
State proceeded on one count of the azmed habitual criminal offense (720 ILCS 5/24-1.7(a)
(West 2016)) and one count of unlawful possession of a weapon by a felon (id § 24-1.1(a)).
Defendant filed a motion to quash arrest and suppress evidence, which was heard concurrently
with the trial.
¶4

Chicago police officer Christopher Cannata testified that on May 24, 2016, at

approximately 3:25 p.m., he was on patrol with Officers Patrick Martino and Pavonel in an
unmazked vehicle neaz the 4900 block of West Ferdinand Street. The officers received a dispatch
regarding "a male black with a black T-shirt, yellow shorts and dreadlocks in possession of a
black handgun" near Ferdinand Street and Lamont Avenue. The description matched a person
the officers had seen there earlier in the day, whom Cannata identified in court as defendant.
When the officers returned to the area, Cannata observed defendant wearing the same clothes
and standing with three other men. The officers pazked 10 to 15 feet away, exited the vehicle,
announced their office, and "asked to see all the individuals's [sic] hands."
¶5

According to Cannata, the three men around defendant showed their hands, but defendant

"immediately placed one hand into his right short pockets [sic] and then began to rum away from
us." The officers approached defendant and again asked to see his hands, but he "did not
comply." Seconds later, Martino grabbed defendant's shoulder or upper arm. Cannata observed
defendant's hand "break free from his pocket" and noticed "the butt and re-slide of a semiautomatic handgun" protruding from the right pocket of his shorts. Cannata. seized the firearm,
which was loaded with seven live rounds, and defendant was handcuffed. As Cannata and

'Officer Pavone's first name does not appear in the transcript.
~►~

1-16-3053
Martino walked defendant to their vehicle, "he blurted out that he just had the gun for protection
because he had been shot."
¶6

On cross-examination, Cannata stated that he saw defendant at Lamont Avenue and

Ferdinand Street in a large group of people "less than an hour" before the dispatch but had no
contact with him. At that time, defendant was not holding a weapon, and only his clothing caught
Cannata's attention. Cannata never spoke with the person who called the police to report an
individual with a firearm and did not know the person's identity. Cannata added that, when the
officers exited their vehicle and approached defendant, he fumed away but did not make other
movements. When Martino grabbed defendant, his hand was in his pocket. Cannata explained
that Martino made physical contact with defendant "[for our safety, mainly based on his lack of
listening to our orders."
¶7

Martino testified that he advised defendant of his Miranda rights at the police station. See

Miranda v. Arizona, 384 U.S. 436 (1966). Defendant stated that he understood his rights and said
"the only reason why he had a handgun on his person was for lus protection because he ha[d]
been shot earlier on that block." On cross-examination, Martino did not recall whether defendant
made any statements at the location of his arrest.
¶8

The State entered a stipulation between the parties that defendant had two qualifying

felony convictions for purposes of the armed habitual criminal statute. Afterwards, the State
rested, and defendant moved for a directed finding, which the trial court denied. The defense
rested without presenting evidence.
¶9

In support of defendant's motion to quash arrest and suppress evidence, defense counsel

argued that the call to police, reporting someone with a firearm, was unreliable because nothing
established the caller's identity, motive, or basis for knowledge. Counsel posited that the fact that

-3-

. ~ '

1-16-3053

~'

officers noticed defendant wearing the same clothes as the person whom the caller described was

~,

insufficient corroboration for a search and seizure and that no probable cause e~sted because the
officers did not observe a firearm until they searched defendant. The State, in response,
submitted that "a concerned citizen is ordinarily considered more credible" than a paid
informant. Additionally, the State maintained that the officers conducted a valid Terry stop
where they were told a person resembling defendant was canying a firearm and defendant put
his hand in his pocket and turned away when the officers approached lum and asked to see his
hands.
¶ 10

The trial court denied defendant's motion and found him guilty of being an armed

habitual criminal and unlawful possession of a weapon by a felon. According to the court, the
fact the officers had seen defendant prior to the dispatch "just goes to location" and did not prove
"any type of *** criminal activity." The court explained, however, that defendant's conduct in
putting his hand in his pocket and turning away when the officers asked to see his hands, coupled
with the officers' knowledge that someone resembling defendant reportedly possessed a fireazm,
created an "articulable suspicion about officer safety" and, therefore, the Terry stop was justified.
The court did not comment whether probable cause existed for defendant's arrest.
¶ 11

Defendant filed a motion for new trial, azguing, in relevant part, that the trial court erred

in denying his motion to suppress. T'he court denied the motion. Following a hearing, the court
merged the counts and sentenced defendant to eight years' imprisonment for being an 'armed
habitual criminal.
¶ 12

II. ANALYSIS
On appeal, defendant contends that the trial court erred in denying his motion to suppress

:;

because the officers lacked a reasonable, articulable suspicion to conduct the Terry stop that

'~

¶ 13

.~,
-4-

~~ ~ .

1-16-3053
produced the firearm and his statements. Relying on People v. Aguilar, 2013 IL 112116,
defendant submits that "mere possession of a firearm outside the home, without more, is not a
crime" and, therefore, the call about a person with a firearm did not provide the officers with a
reasonable suspicion of criminal activity to justify ordering him to show his hands and
restraining him when he refused, particularly where he was not engaged in suspicious conduct
when the officers observed. him. Even if his conduct justified a protective pat down, defendant
maintains the recovery of the firearm did not create probable cause for his arrest because, when
the officers arrested him, they did not know whether he lacked a concealed carry license or had
prior felony convictions.
¶ 14

In the trial court, the defendant has the burden of proof on a motion to quash arrest and

suppress evidence. People v. Cregan, 2014 IL 113600, ¶ 23. "If the defendant makes a
primafacie showing that the evidence was obtained in an illegal search or seizure, the burden
shifts to the State to provide evidence to counter the defendant's prima facie case." 7d. However,
"[t]he ultimate burden of proof remains with the defendant." Id. On review, the trial court's
factual findings will be reversed only when they are against the manifest weight of the evidence
(People v. Manzo, 2018 IL 122761, ¶ 25), but the "legal ruling on whether the evidence should
be suppressed is reviewed de novo" (People v. Bonilla, 2018 IL 122484, ¶ 8).
¶ 15

The fourth amendment to the United States Constitution and the Illinois Constitution of

1970 both "guarantee the right of individuals to be free from unreasonable searches and
seizures." People v. Colyar, 2013 IL 111835, ¶ 31; see U.S. Const., amends. N, XIV; Ill. Const.
1970, art. I, § 6. Typically, seizures require a warrant supported by probable cause. People v.
Johnson, 237 Ill. 2d 81, 89 (2010). Pursuant to Terry, however, "a police officer may conduct a
brief, investigatory stop of a person where the officer reasonably believes that the person has

~~

1-16-3053
committed, or is about to, commit a crime." People v. Close, 238 Ill. 2d 497, 505 (2010) (citing
Terry, 392 U.S. at 22). Further, "when an officer is justified in believing that the individual
whose suspicious behavior he is investigating at close range is armed and presently dangerous to
the oi~"icer or others, the officer may conduct spat-down search to determine whether the person
is in fact carrying a weapon." People v. Sorenson, 196 Ill. 2d 425, 432 (2001) (citing Terry, 392
U.S. at 24). "Whether an investigatory stop is valid is a separate question from whether a search
for weapons is valid." People v. Thomas, 198 Ill. 2d 103, 109 (2001).
¶ 16

Because the fourth amendment is not implicated until a seizure occurs, ow first inquiry is

to determine when defendant was seized. People v. Nitz, 371 Ill. App. 3d 747, 750 (2007). Under
the fourth amendment, "an individual is seized when an officer by means of physical force or
show of authority, has in some way restrained the liberty of a citizen." (Internal quotation mazks
omitted.) People v. Harris, 228 Ill. 2d 222, 246 (2008). Formulated another way, "a person has
been seized when, considering the totality of the circumstances, a reasonable person would
believe he was not free to leave." People v. Oliver, 236 Ill. 2d 448, 456 (2010) (citing United
States v. Mendenhall, 446 U.S. 544, 554 (1980)). In considering whether a seizure occurred,
courts consider "(1) the threatening presence of several officers; (2) the display of a weapon by
an officer; (3) some physical touching of the person; or (4) using language or tone of voice
compelling the individual to comply with the officer's requests." Id. (citing Mendenhall, 446
U.S. at 554).
¶ 17

The Mendenhall test "states a necessary, but not a, sufficient, condition for seizure."

Thomas, 198 Ill. 2d at 111 (citing California v. Hodari D., 499 U.S. 621, 628 (1991)). This is
because, "[w]hile an officer's show of authority may amount to a seizure [citation], *** a

1-16-3053
defendant is not seized when he ignores a show of authority." People v. Billingslea, 292 Ill. App.
3d 1026, 1030 (1997). Thus, in Thomas, our supreme court explained:
" `The police may well convey a reasonable feeling of restraint, but that message does not
amount to a seizure within the meaning of the fourth amendment until there is submission
to it. A person must submit to a show of authority before that show of authority can
constitute a seizure.' "(Emphasis omitted.) Thomas, 198 Ill. 2d at 112 (quoting People v.
Thomas, 315 Ill. App. 3d 849, 857 (2000)).
¶ 18

Here, defendant argues he was seized by the officers "immediately upon their arrival" at

Ferdinand Street and Lamont Avenue, when they exited their vehicle and ordered him and the
other men to "put their hands up." According to defendant, the officers' number and language
showed compliance was mandatory, as further evidenced by the fact the other men displayed
their hands and, when defendant did not, the officers grabbed him. We disagree.
¶ 19

At trial, Cannata testified that the officers parked 10 to 15 feet from defendant and the

other men. The officers exited their vehicle and announced their office, but no evidence showed
they displayed weapons or touched any of the men. When the oi~cers "asked to see" the men's
hands, three of them complied, but defendant "immediately" placed one hand in his pocket and
"began to turn away." The officers approached him and asked to see his hands a second time, but
defendant again "did not comply." At that point, Martino grabbed defendant's shoulder or arm.
¶ 20

Between the moment the officers arrived and the time Martino grabbed defendant,

defendant refused two requests to display his hands and, instead, placed his hand in his pocket
and turned away. Under these circumstances, defendant did not submit to the officers' authority
upon their arrival. See Billingslea, 292 lll. App. 3d at 1030 (finding the defendant "did not
submit to the assertion of authority" when an officer "ordered him to keep his hands where he

-7-

n

1-16-3053
could see them" but defendant "turned away [and] reached for an object in his waistband").

~:'
>>
,'~
:,,

Consequently, defendant was not seized until Martino grabbed hun. See Harris, 228 Ill. 2d at
246; People v. Evans, 2017 IL App (4th) 140672, ¶ 31 (the defendant "resisted [an officer's]
authority by continuing to place his hands back into his pockets" and "was not seized until [the
officer] frisked him")
¶ 21

Having determined when defendant was seized, our next inquiry is whether the officers

were justified in conducting a Terry stop at that moment.
¶ 22

Terry permits an officer to conduct a brief, investigatory stop of a person whom the

officer reasonably believes "has committed, or is about to, commit a crime." Close, 238 Ill. 2d at
505 .(citing Terry, 392 U.S. at 22). To justify a Terry stop, officers must be able to point to
specific and articulable facts that, considered with the rational inferences therefrom, make the
intrusion reasonable. People v. Timmsen, 2016 IL 118181, ¶ 9. "The determination of reasonable

r

suspicion must be based on commonsense judgments and inferences about human behavior, and
due weight must be given to the reasonable inferences the officer is entitled to draw from the
Facts in light of his experience." People v. Thomas, 2019 IL App (1st) 170474, ¶ 19. While
reasonable suspicion is a less stringent standard than probable cause, an officer's hunch or
1'.

unparticularized suspicion is insufficient. People v. Williams, 2016 IL App (1st) 132615, ¶ 44.
Ultimately, "[i]n determining whether the officer had a reasonable suspicion, a court considers

+~
~Y
4
•:

the totality of the circumstances known to the officer" (In re Edgar C., 2014 IT, App (1st)
141703, ¶ 97) and views those facts "from the perspective of a reasonable officer at the time of
the stop" (People v. Sanders, 2013 IL App (1st)102696, ¶ 14).
¶ 23

Based on the totality of the circumstances, we fmd the Terry stop was valid. When

Martino grabbed defendant, the officers had been told that a person matching defendant's

•~..
;.;;
~.
' ,~.-`
f'
'~'
y :;..

_g_

1-16-3053
description was reportedly in possession of a firearm. Seconds eazlier, defendant had twice
refused the officers' requests to show his hands and instead put his hand in his pocket and turned
away. Defendant's hand was still in his pocket when Martino grabbed him, and Cannata testified
that defendant's conduct posed a safety concern. Thus, although "an individual's refusal to
cooperate, without more, does not amount to reasonable suspicion" (Timmsen, 2016 IL 118181,
¶ 10), the officers' decision to detain defendant resulted from more than just his noncompliance
with their request to show his hands and was reasonable given the facts known to the officers at
the relevant time.
¶ 24

In reaching this conclusion, we observe that the reliability of the tip that resulted in the

officers' dispatch is not dispositive of the validity of the Terry stop. Defendant was not seized
when the officers azrived on the scene in response to the tip but, rather, was seized when Martino
grabbed him. While only a few seconds passed between when the officers arrived and the
moment the seizure occurred, in that time, the officers became aware of other circumstances,
including defendant's furtive conduct in response to their request to see his hands. Thus, the tip
was just one of several factors that, viewed from the perspective of a reasonable officer, made
the Terry stop valid. See Sanders, 2013 IL App (1st) 102696, ¶ 14.
¶ 25

Although the validity of an investigatory stop is typically a different issue from the

validity of a search for weapons (Thomas, 198 Ill. 2d at 109), in this case, Cannata observed the
firearm during the Terry stop. Cannata testified that, after Martino grabbed defendant,
defendant's hand "br[oke] free from his pocket" and "the butt and re-slide of asemi-automatic
handgun" protruded from the right pocket of his shorts. Cannata seized the firearm, and
defendant was handcuffed. When Cannata noticed the firearm in plain sight, he knew that
defendant was armed and possibly dangerous and, therefore, could cleazly "point to specific,

i

1-16-3053
y
articulable facts which *** reasonably warranted] the intrusion" involved in seizing the firearm.
People v. Flowers, 179 Ill. 2d 257, 264 (1997). Consequently, the officers legally recovered the
fireann, and defendant's challenge to the Terry stop is without merit.
¶ 26

Defendant contends, however, that the recovery of the firearm did not create probable

cause for his arrest because "mere possession of a firearm outside the home, without more, is not
a crime" and, at the time of his arrest, the officers did not know whether he lacked a concealed
,,

carry license or had felony convictions.
¶ 27

An arrest executed without a wazrant is valid only when it is supported by probable

cause. People v. Grant, 2013 IL 112734, ¶ 11. "Probable cause to arrest exists when the facts
known to the officer at the time of the arrest are sufficient to lead a reasonably cautious person to
believe that the arrestee has committed a crime." People v. Wear, 229 Ill. 2d 545, 563-64 (2008).
The existence of probable cause depends on "the totality of the circumstances at the time of the
arrest" and "is governed by commonsense considerations." Grant, 2013 IL 112734, ¶ 11. "[TJhe
calculation concerns the probability of criminal activity, rather than proof beyond a reasonable
doubt." Id.
¶ 28

In Aguilar, our supreme court held that a portion of the aggravated unlawful use of a

weapon statute—which "categorically prohibit[edJ the possession and use of an operable firearm
for self-defense outside the home"—violated the second amendment of the United States
Constitution. Aguilar, 2013 IL 112116, ¶ 21. The supreme court explained that "the second
amendment right to keep and bear arms extends beyond the home" but is still subject to
meaningful regulation. Id. ¶¶ 20-21. In Illinois, those regulations include laws such as the
unlawful possession of a weapon by a felon statute (720 ILCS 5/24-1.1(a) (West 2016)), which
prohibits felons from possessing firearms. Other regulations include the requirement that, in

-10-

1-16-3053
order to possess a handgun, a person must carry a Firearm Owners Identification (FOID) cazd
issued to him or her by the state police. 430 ILCS 65/2 (West 2016). To carry a concealed
firearm, a FOID cazdholder also must possess a license under the Firearm Concealed Carry Act
(430 ILCS 66/10, 25 (West 2016)).
¶ 29

The Firearm Concealed Carry Act further provides that, if an officer initiates an

investigative stop, upon the request of the officer, a licensee must disclose that he or she
possesses a concealed fireazm, present his or her license, and identify the firearm's location. Id.
§ 10(h). Pursuant to section 108-1.01 of the Code of Criminal Procedure of 1963 (Code) (725
ILCS 5/108-1.01 (West X016)), when an officer has stopped a person for temporary questioning
and "reasonably suspects that he or another is in danger of attack, he may search the person for
weapons" and may take the weapon "until the completion of the questioning, at which tune he
sha11 either retain the weapon, if lawfully possessed, or arrest the person so questioned."
¶ 30

Defendant was arrested on May 24, 2016, after Aguilar was decided. On that date, the

categorical prohibition on the possession of an operable firearm outside the home was
unconstitutional. As the officers did not inquire whether defendant had a concealed carry license
or felony convictions before arresting hun, defendant maintains he was arrested without probable
cause. Again, we disagree.
¶ 31 .Our supreme court has explained that "the existence of probable cause depends upon the
totality of the circumstances at the time of the arrest." A'ear, 229 Ill. 2d at 564. These
circumstances include "the factual and practical considerations of everyday life on which
reasonable and prudent men, not legal technicians, act." (Internal quotation marks omitted.) Id.
"The standard is the probability of criminal activity, not proof beyond a reasonable doubt or even
that it be more likely than not." People v. Gocmen, 2018 IL 122388, ¶ 19.

-11-

>>

1-16-3053
¶ 32

~~:-

Applying these principles here, the totality of tl~e circumstances when the officers

: S-W
,;

arrested defendant suggested criminal activity. To briefly restate the facts, the officers responded
to a report that a person matching defendant's three-point description possessed a fireazm. The

~`~~

officers asked defendant and three other men to show their hands. The three other men complied,

~ <'

but defendant twice ignored the officers' requests and, instead, placed his hand in his pocket and
turned away. At that point, the officers conducted a Terry stop, recovered a loaded Eireann from
defendant's pocket, and handcuffed him. While the officers did not inquire about his criminal

:.
' ;:`~~
_,~~
re

history or firearm licenses at that moment, "the existence of a possible innocent explanation, like
defendant's possession of the required gun licenses, [does] not necessarily negate probable
cause." Thomas, 2019 IL App (1st) 170474, ¶ 39. Instead, defendant's repeated noncompliance
with the officers' requests, the fact he fumed away and kept his hand in his pocket, and the
discovery of the fueazm in that pocket are all practical considerations justifying probable cause
that he illegally possessed the firearm. See People v. Smith,. 2015 IL App (lst) 131307, ¶ 29
("furtive movements may be considered justification for performing a warrantless search when
coupled with other circumstances tending to show probable cause," even though "looks,
gestures, and movements taken alone are insufficient" (internal quotation mazks omitted)).
¶ 33

~s<
,~~:
,..
!:.

Defendant has cited Thomas, 2019 IL App (1st) 170474, as authority for his position that

his arrest should have been quashed. In defendant's motion to cite Thomas as additional

~e

authority, he asserts that "Thomas makes cleaz that it is not reasonable to presume that, simply
because a handgun may be visible in public, it was necessazily being carried in violation of the
law" and that defendant's "possession of a handgun did not give the officers an objectively
reasonable basis to believe that he was violating the law." Defendant claims that his arrest was
not justified because, upon discovering that he was in possession of the handgun, the police
~,
-12-

',~
,~

1-16-3053
immediately arrested him "without any inquiry into whether his possession of the handgun was
lawful."
¶ 34

In Thomas, this court stated that, "under the current legallandscape, police cannot simply

assume a person who possesses a firearm outside the home is involved in criminal activity:' Id.
¶ 40. We stated that the police "cannot use a firearm in partial view, such as a senni-exposed gun
protruding from the pant pocket of a person on a public street, alone as probable cause to arrest
an individual for illegal possession without first identifying whether the individual has the
necessary licenses." Id. We cautioned "against `an arrest first, determine licensure later' method
of police patrol." (Emphasis added.) Id. However, despite this admonition, we nevertheless
found that the totality of the circumstances—such as the defendant's flight, his actions of
handing his gun to another person in a common area of an apartment upon seeing the police, and
then fleeing the scene—gave the police probable cause to believe that the defendant illegally
possessed the gun. Id. ¶ 38. Likewise, here, as described above, even though the officers did not
inquire as to whither defendant lawfully possessed the gun, including whether he had a valid
concealed carry license or felony convictions, before they arrested him, the police had probable
cause to arrest defendant based on the totality of the circumstances.
¶ 35

Further, we note that our admonition in Thomas against " `arrest first, determine licensure

later,' "must be balanced against officer safety. See id. ¶ 40.
¶ 36

Public policy demands that police must be safe in the performance of their duties.

Officers here were acting on a citizen tip that there was a man (1) with dreadlocks, (2) in yellow
shorts, (3) in a black T-shirt, and (4) in possession of a gun at a specific location. When the
police got to that location and saw the man matching that particularized description and asked
him and his friends to stop and show their hands, he declined the officers' request, placed one

-13-

1-16-3053
hand in his pocket, and turned away from them. He then refused to comply with the officers'
second request to see his hands. Based on information that defendant had a gun and the
combination of factors in this case, as previously described, the officers were justified in
conducting a Terry stop when they stepped behind him and grabbed his shoulder. It was at this
time, during the Terry stop, that they discovered he was in possession of a handgun.
¶ 37

Under section 108-1.01 of the Code, when an officer has stopped a person under the

"Search During Temporary Questioning" provision in the Code and "reasonably suspects that he
or another is in danger of attack, he may seazch the person for weapons" and take the weapon
"until the completion of the questioning, at which time he shall either return the weapon, if
lawfully possessed, or arrest the person" that was questioned. 725 ILCS 5/108-1.01 (West 2016).
Further, under the Firearm Concealed Carry Act, "upon the request of the officer the licensee
*** shall disclose to the officer-that he or she is in possession of a concealed fireann under this
Act." 430 ILCS 66/10(h) (West 2016).
¶ 38

~ We recognize that the officers did not question defendant under section 108-1.01 of the

Code or the Fireann Concealed Carry Act to determine whether he had a valid concealed carry
license or felony convictions. However, defendant also did not volunteer information to the
officers. A reasonable person who was not committing a crime (i.e., who had the valid licenses)
would be expected to tell the officers he was licensed to have and carry a gun.
¶ 39

When the officers initially asked defendant to see his hands, he could have notified them

that he lawfully had a gun. During the Terry stop, when the officers saw the gun protruding from
defendant's pocket, defendant had an opportwuty to offer the information that he was properly
licensed or otherwise in lawful possession. He did not. When the officers took the gun, defendant
could have offered up license information, but once more, he did not. Defendant had multiple

-14-

1-16-3053
opportunities to protect his legitimate interests and volunteer the information that he was
licensed. That would have been the end of it. In the absence of such infomnation and in
combination with all other factors previously described, even though the officers did not inquire
about whether defendant had a valid license, the officers were fully justified in detaining and
arresting defendant before they could confirm his licensure and the lawfulness of the possession
of the gun without his help.
¶ 40

After oral azguments, we granted defendant leave to additionally cite People v. Horton,

2019 IL App (1st) 142019-B, which, according to defendant, supports his argument that his mere
"voluntary decision not to engage with the police" could not support a finding of reasonable
suspicion. However, in Horton, the defendant filed a motion to quash arrest and suppress
evidence that solely challenged whether the officers had probable cause to arrest him. Id. ¶ 13.
As this court observed, the evidence in Horton also showed that only an arrest, and not a stop,
occurred. Id. ¶ 65. Specifically, the evidence showed that a police officer saw the defendant
merely stand outside a house with a " `metallic object in his waistband,' "turn, and "rush[ J"
inside the .house. Id. ¶¶ 14-15. The officer entered the house, saw the defendant "crouched next
to a bed" in a bedroom, "detained" the defendant, and recovered a handgun from under the
mattress. Id. ¶ 16. The circuit court denied the defendant's motion to quash and suppress. Id.
¶ 22. We reversed the circuit court's decision, however, and found that the defendant's mere
flight from the police officers did not give rise to probable cause to arrest. Id. ¶¶ 65-68, 76, 87
¶ 41

Here, unlike in Horton, the officers initially conducted a Terry stop, which uncovered

evidence supporting probable cause to arrest. Accordingly, the officers' initial seizure of
defendant only needed to be justified by circumstances meeting the "lower standard of
reasonable suspicion as opposed to the more exacting standard of probable cause." Id. ¶ 65

-15-

1-16-3053
Additionally, unlike in Horton, there were circumstances other than defendant's flight to support
defendant's arrest. Specifically, the officers received a report that a person matching defendant's
description possessed a firearm and asked defendant and three other men to show their hands.
Defendant repeatedly refused to comply, placed his hand in his pocket, and turned away. The
officers were then justified to perform a Terry stop, and upon recovering a loaded firearm from
defendant, they were justified in arresting him. The circumstances of defendant's stop and
eventual arrest were not limited to defendant's mere refusal to cooperate with the officers, as
defendant suggests, and so Horton does not apply.
¶ 42

Also after oral arguments, the State was granted leave to additionally cite People v.

Foskey, 136 Ill. 2d 66 (1990). Foskey stands for the finding that, if the State prevails on a
defendant's motion to suppress, then the State has not waived an argument that might also have
been raised in support of the trial court's Wiling, given that the argument is not inconsistent with
the position the State took at trial. Id. at 84-85. The State cites Foskey as additional authority
because, during oral arguments, defendant azgued in rebuttal that the State changed its theory on
appeal by newly asserting that the officer's initial stop was a consensual encounter. However, we
have found this case rests on a Terry stop, so further analysis of Foskey is unnecessary.
¶ 43

In addition, the State was granted leave to "reiterate" Thomas, 2019 IL App (1st) 170474,

after oral azguments for purposes of emphasizing that defendant had the initial burden of
establishing that his stop and arrest were unreasonable. However, the facts in this case do not
make it necessary to belabor this aspect of Thomas, since defendant chose not to offer any
evidence or testify and the uncontradicted testimony of the officers demonstrated a valid Terry
stop.
¶ 44

III. CONCLUSION

-16-

1-16-3053
¶ 45

In sum, the evidence showed that officers conducted a valid Terry stop, resulting in the

discovery of a fireazm, and that the officers had probable to cause to arrest defendant, based on
all the surrounding circumstances. Consequently, the trial court did not en in denying
defendant's motion to quash arrest and suppress evidence. Because the firearm and defendant's
postarrest statements were not subject to exclusion, we do not reach defendant's further
contention that no exceptions to the exclusionary rule apply to that evidence. Consequently,
defendant's conviction for being an armed habitual criminal is affirmed.
¶ 46

Affirmed.

-17-

•

'r
~~~

1-16-3053

`'

No.1-16-3053

Cite as:

People v. McMichaels, 2019 IL App (1st) 163053

Decision Under Review:

Appeal from the Circuit Court of Cook County, No. 16-CR8706; the Hon. Vincent M. Gaughan, Judge, presiding.

Attorneys
for
Appellant:

James E. Chadd, Patricia Mysza, and Lauren A. Bauser, of State
Appellate Defender's Office, of Chicago, for appellant.

Attorneys
for
Appellee:

Kimberly M. Fo~cx, State's Attorney, of Chicago (Alan J.
Spellberg, Mazci Jacobs, and Delicia D. Zayas, Assistant State's
Attorneys, of counsel), for the People.

-18-

APPENDIX B

APPENDIX C

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

September 30, 2020
In re:

People State of Illinois, respondent, v. DeAndre McMichaels,
petitioner. Leave to appeal, Appellate Court, First District.
126048

The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 11/04/2020.

Very truly yours,

Clerk of the Supreme Court

APPENDIX D

66/10. Issuance of licenses to carry a concealed firearm, IL ST CH 430 § 66/10

KeyCite Yellow Flag - Negative Treatment
Proposed Legislation

West's Smith–Hurd Illinois Compiled Statutes Annotated
Chapter 430. Public Safety
Act 66. Firearm Concealed Carry Act
430 ILCS 66/10
66/10. Issuance of licenses to carry a concealed firearm
Effective: July 10, 2015
Currentness
§ 10. Issuance of licenses to carry a concealed firearm.
(a) The Department shall issue a license to carry a concealed firearm under this Act to an applicant
who:
(1) meets the qualifications of Section 25 of this Act;
(2) has provided the application and documentation required in Section 30 of this Act;
(3) has submitted the requisite fees; and
(4) does not pose a danger to himself, herself, or others, or a threat to public safety as determined
by the Concealed Carry Licensing Review Board in accordance with Section 20.
(b) The Department shall issue a renewal, corrected, or duplicate license as provided in this Act.
(c) A license shall be valid throughout the State for a period of 5 years from the date of issuance.
A license shall permit the licensee to:

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

66/10. Issuance of licenses to carry a concealed firearm, IL ST CH 430 § 66/10

(1) carry a loaded or unloaded concealed firearm, fully concealed or partially concealed, on or
about his or her person; and
(2) keep or carry a loaded or unloaded concealed firearm on or about his or her person within
a vehicle.
(d) The Department shall make applications for a license available no later than 180 days after the
effective date of this Act. The Department shall establish rules for the availability and submission
of applications in accordance with this Act.
(e) An application for a license submitted to the Department that contains all the information and
materials required by this Act, including the requisite fee, shall be deemed completed. Except as
otherwise provided in this Act, no later than 90 days after receipt of a completed application, the
Department shall issue or deny the applicant a license.
(f) The Department shall deny the applicant a license if the applicant fails to meet the requirements
under this Act or the Department receives a determination from the Board that the applicant is
ineligible for a license. The Department must notify the applicant stating the grounds for the
denial. The notice of denial must inform the applicant of his or her right to an appeal through
administrative and judicial review.
(g) A licensee shall possess a license at all times the licensee carries a concealed firearm except:
(1) when the licensee is carrying or possessing a concealed firearm on his or her land or in his
or her abode, legal dwelling, or fixed place of business, or on the land or in the legal dwelling
of another person as an invitee with that person's permission;
(2) when the person is authorized to carry a firearm under Section 24–2 of the Criminal Code
of 2012, except subsection (a–5) of that Section; or
(3) when the handgun is broken down in a non-functioning state, is not immediately accessible,
or is unloaded and enclosed in a case.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

66/10. Issuance of licenses to carry a concealed firearm, IL ST CH 430 § 66/10

(h) If an officer of a law enforcement agency initiates an investigative stop, including but not
limited to a traffic stop, of a licensee or a non-resident carrying a concealed firearm under
subsection (e) of Section 40 of this Act, upon the request of the officer the licensee or non-resident
shall disclose to the officer that he or she is in possession of a concealed firearm under this Act,
or present the license upon the request of the officer if he or she is a licensee or present upon the
request of the officer evidence under paragraph (2) of subsection (e) of Section 40 of this Act that
he or she is a non-resident qualified to carry under that subsection. The disclosure requirement
under this subsection (h) is satisfied if the licensee presents his or her license to the officer or the
non-resident presents to the officer evidence under paragraph (2) of subsection (e) of Section 40
of this Act that he or she is qualified to carry under that subsection. Upon the request of the officer,
the licensee or non-resident shall also identify the location of the concealed firearm and permit the
officer to safely secure the firearm for the duration of the investigative stop. During a traffic stop,
any passenger within the vehicle who is a licensee or a non-resident carrying under subsection (e)
of Section 40 of this Act must comply with the requirements of this subsection (h).
(h–1) If a licensee carrying a firearm or a non-resident carrying a firearm in a vehicle under
subsection (e) of Section 40 of this Act is contacted by a law enforcement officer or emergency
services personnel, the law enforcement officer or emergency services personnel may secure the
firearm or direct that it be secured during the duration of the contact if the law enforcement
officer or emergency services personnel determines that it is necessary for the safety of any person
present, including the law enforcement officer or emergency services personnel. The licensee or
nonresident shall submit to the order to secure the firearm. When the law enforcement officer or
emergency services personnel have determined that the licensee or non-resident is not a threat
to the safety of any person present, including the law enforcement officer or emergency services
personnel, and if the licensee or non-resident is physically and mentally capable of possessing the
firearm, the law enforcement officer or emergency services personnel shall return the firearm to
the licensee or non-resident before releasing him or her from the scene and breaking contact. If
the licensee or non-resident is transported for treatment to another location, the firearm shall be
turned over to any peace officer. The peace officer shall provide a receipt which includes the make,
model, caliber, and serial number of the firearm.
(i) The Department shall maintain a database of license applicants and licensees. The database
shall be available to all federal, State, and local law enforcement agencies, State's Attorneys, the
Attorney General, and authorized court personnel. Within 180 days after the effective date of
this Act, the database shall be searchable and provide all information included in the application,
including the applicant's previous addresses within the 10 years prior to the license application and
any information related to violations of this Act. No law enforcement agency, State's Attorney,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

66/10. Issuance of licenses to carry a concealed firearm, IL ST CH 430 § 66/10

Attorney General, or member or staff of the judiciary shall provide any information to a requester
who is not entitled to it by law.
(j) No later than 10 days after receipt of a completed application, the Department shall enter the
relevant information about the applicant into the database under subsection (i) of this Section
which is accessible by law enforcement agencies.
Credits
P.A. 98–63, § 10, eff. July 9, 2013. Amended by P.A. 98–600, § 15, eff. Dec. 6, 2013; P.A. 99–
29, § 15, eff. July 10, 2015.

Notes of Decisions (41)
430 I.L.C.S. 66/10, IL ST CH 430 § 66/10
Current through P.A. 101-651. Some statute sections may be more current, see credits for details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

